IN THE SUPREME COURT OF THE UNITED STATES

No.
MICHAEL NEELY
v.
THE BOEING COMPANY
CERTIFICATE OF SERVICE

I, Michael Neely, petitioner in these matters, certify that,
on March

16,

2020,

three copies of the

Petition

for

a Writ

of

Certiorari in the above-captioned case were sent, by third-party
commercial carrier for delivery overnight and by electronic mail,
to the following counsel:
Perkins Coie LLP
Mack Shultz
1201 Third Avenue Suite 4900
Seattle, WA 98101-3099
(206) 359-6724
MShultz@perkinscoie.com
I further certify that all parties required to be served
have been served.

Michael Neely, Pr<

